                                   u.s. DEPARTMENT OF EDUCATION
                                                 Tt-tE WANAMAKER BUILDING 

                                             100 PENN SQUARE EAST, SUITE 502 

                                                   PHILADELPHIA, PA 19107 




     OFFICE OF
INSPECTOR GENERAL
                                                                                                       March 8, 2004

     Mr. David G. Imig
     President and CEO
     American Association of Colleges for Teacher Education
     1307 New York Avenue, NW, Suite 300
     Washington, DC 20005

     Dear Mr. Imig:

     This Final Audit Report (Control Number ED-OIG/A03-D0021) presents the results of
     our audit of the Education Resources Information Center (ERIC) Clearinghouse on
     Teaching and Teacher Education (CTTE) at the American Association of Colleges for
     Teacher Education (AACTE).

                                                  AUDIT RESULTS

     Our audit objective was to determine if ERIC CTTE had adequate management controls
     in place to ensure that a range of information on alternative teacher certification was
     disseminated by ERIC CTTE for the period January 1,2002, through June 30, 2003. For
     purposes of this audit, we assessed and classified the significant management controls
     into the following categories:

         • 	 The selection and review of articles and documents and the preparation and
             posting of abstracts for Resources in Education (RIE) and Current Index to
             Journals in Education (CUE).
         • 	 The selection of topics for and preparation of clearinghouse publications.
         • 	 The response to AskERIC and other information requests.

     We concluded that during the period January 1,2002, through June 30, 2003, ERIC
     CTTE had adequate management controls in place to ensure that a range of information
     on alternative teacher certification was disseminated by ERIC CTTE, and that ERIC
     CTTE provided unbiased information on the issue of alternative teacher certification.

     Because of inherent limitations in any management control structure, errors may occur
     and not be detected. Also, projection of any evaluation of the system to future periods is
     subject to the risk that procedures may become inadequate because of changes in
     conditions, or that the degree of compliance with the procedures may deteriorate.




        ·Our Mission is to Ensure Equal Access to Education and to Promote Educational Excellence Throughout the Nation"
Mr. Imig, Page 2                                                        ED-OIG/A03-D0021


                                   OTHER MATTERS


We noted a minor management control issue that we brought to the attention of AACTE.
AACTE did not have formal policies and procedures in place to ensure that actual or
potential conflicts of interest would be identified and disclosed to the U.S. Department of
Education (the Department) Contracting Officer, along with the actions to avoid,
mitigate, or neutralize the actual or potential conflict of interest, pursuant to the contract
clause “Organizational Conflicts of Interest.” In a written response, dated December 31,
2003, AACTE noted that in the unlikely event that a conflict of interest were to arise,
experienced ERIC CTTE staff would follow procedures and protocol detailed in the
contract clause “Organizational Conflicts of Interest.” AACTE added that its objectivity
in hosting ERIC CTTE is assured by the diverse nature of its membership. In addition,
AACTE noted that it addressed all requirements in the most recent contract proposal, and
that conflict of interest was not raised in the contract negotiations or highlighted in any
subsequent correspondence or directives from the Department.

                                     BACKGROUND

Established in 1966, ERIC is a federally funded, national information system providing
access to education related information. The Department’s Institute of Education
Sciences (IES), formerly the Office of Educational Research and Improvement (OERI),
supports ERIC. ERIC consisted of 16 subject specific clearinghouses, 10 adjunct
clearinghouses, an affiliate clearinghouse, and support components, such as the ERIC
Processing and Reference Facility, which produced and maintained the ERIC database.
The ERIC database contains over one million records. ERIC components participated in
AskERIC, a system-wide effort to disseminate information through electronic question
answering, digital referencing, and other services. Users of ERIC include education
professionals, students, parents, school board members, researchers, and journalists. In
January 2004, the Department began to implement a reengineering plan for ERIC; the
Department intends to contract with a vendor or team of vendors to operate an all-
inclusive online bibliographic and full-text ERIC database.

Each ERIC Clearinghouse was a separate contracted entity that collected and processed
data within the scope of its specified education-related subject matter. The scope of
ERIC CTTE covered school personnel issues, including recruitment, selection, licensing,
certification, training, and pre- and in-service preparation, evaluation, retention, and
retirement; theory, philosophy, and practice of teaching; organizational, administrative,
financial, and legal issues pertaining to teacher education programs and institutions; and
all aspects of health, physical, recreation, and dance education.
Mr. Imig, Page 3	                                                      ED-OIG/A03-D0021



The Department awarded the ERIC CTTE contract (ED99CO0007), valued at
$2,416,762, to AACTE for the period January 1, 1999, to December 31, 2003. The ERIC
CTTE contract called for AACTE to:

•	 Acquire, select, and review approximately 1,000 education related documents per
   year. Then, from these selections, prepare approximately 700 abstracts for input into
   ERIC.
•	 Review selected education related journals and prepare approximately 900 abstracts
   annually for input into ERIC.
•	 Prepare approximately 4 major publications, 10 digests, and 5 other products per
   year.
•	 Provide user services, such as answering questions and providing outreach and
   training.

AACTE is a national organization of more than 740 liberal arts colleges, state
universities, research institutions, and various education organizations that prepare
teachers and other education personnel. AACTE represents the institutional interests of
its members, gathers and disseminates data, proposes and analyzes public policy
initiatives, supports professional advancement, and represents the teacher education
community before state and national governments.

                    OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine if ERIC CTTE had adequate management controls
in place to ensure that a range of information on alternative teacher certification was
disseminated by ERIC CTTE for the period January 1, 2002, through June 30, 2003. To
accomplish our audit objective we interviewed ERIC CTTE’s Director and Associate
Directors, the IES Division Director for ERIC, and the Department’s Contracting Officer
Representative. We reviewed the ERIC CTTE contract and statement of work, ERIC
CTTE publication plans, and criteria contained in the ERIC Processing Manual for the
review, selection, and processing of abstracts. We also reviewed the following contract
deliverables from the audit period:

   •	 We randomly selected 2 of the 11 CIJE comprehensive journal titles and 4 of the
      19 CIJE selective journal titles received by ERIC CTTE during the audit period.
      For each of the randomly selected journal issues, we reviewed the extent to which
      articles were selected for abstracts and if the article abstracts were entered into the
      ERIC database. We excluded health, physical education, recreation, and dance
      journals from our review.
   •	 We reviewed the topics covered by the 95 RIE documents that were received by
      ERIC CTTE during the period March 2002 to June 2003 and that were rejected
      for abstracting, to determine if alternative teacher certification was the subject
      matter of any rejected items.
   •	 We obtained, from the ERIC Processing and Reference Facility, a file of
      accessioned RIE and CIJE abstracts from January 2002 through July 2003. We
Mr. Imig, Page 4	                                                       ED-OIG/A03-D0021


        reviewed all 13 of the 746 abstracts from the RIE database and all 4 of the 1,435
        abstracts from the CIJE database that had alternative teacher certification as the
        major descriptor, which indicates the primary subject of the document or article.
        The abstracts were reviewed to determine the nature (i.e., supportive, critical, or
        neutral regarding alternative teacher certification) of the information presented.
   •	   We reviewed ERIC CTTE's 2002 and 2003 proposed publication plans to
        determine which proposed publications relating to alternative teacher certification
        were issued, and if not issued, the reason why.
   •	   We reviewed the 4 major publications, 10 Digests, and 8 other publications and
        products issued by ERIC CTTE, during the audit period, to determine if the
        publications covered the issue of alternative teacher certification. We then
        reviewed the one major publication and two Digests that were pertinent to the
        issue of alternative teacher certification, to determine the nature (i.e., supportive,
        critical, or neutral regarding alternative teacher certification) of the information
        presented.
   •	   Of the 10 monthly phone/correspondence logs on file at ERIC CTTE for our audit
        period, we judgmentally selected the log for the last month in the audit period,
        June 2003. We also randomly selected the log for November 2002. We reviewed
        the two selected monthly logs, containing 70 information requests, to determine
        the topics of the information requests. We reviewed the two information requests
        that concerned the topic of alternative teacher certification to determine the nature
        (i.e., supportive, critical, or neutral regarding alternative teacher certification) of
        the information provided.
   •	   We reviewed 113 AskERIC e-mail information requests received during the audit
        period. AskERIC requests that provided CTTE the option of providing either
        supportive or critical information regarding alternative teacher certification were
        considered pertinent to our review. We noted 12 e-mail files consisting of 7
        AskERIC responses that we determined were pertinent to our review. We
        reviewed the 7 e-mail responses provided by ERIC CTTE to determine the nature
        (i.e., supportive, critical, or neutral regarding alternative teacher certification) of
        the information provided.

To achieve the audit objective, we relied, in part, on computer-processed data contained
in the ERIC Master File and ERIC Data Validation and Processing System (EDVAPS),
specifically the accessioned RIE and CIJE abstracts and rejected RIE documents,
respectively. We assessed the reliability of this data by comparing the file record counts
of both the ERIC Master File and EDVAPS data. We also performed tests of the
accuracy and completeness of the ERIC Master File's abstracts pertaining to alternative
teacher certification by comparing the data to search results obtained from the online
ERIC database. Based upon our preliminary data assessment, we concluded that the
ERIC Master File and EDVAPS data were sufficiently reliable for use in meeting the
audit objective.

We conducted on-site fieldwork from October 1, 2003, through October 3, 2003, at the
AACTE offices in Washington, D.C. We held the exit conference on January 20, 2004.
Mr. Imig, Page 5                                                        ED-OIG/A03-D0021


Our audit was performed in accordance with generally accepted government auditing
standards appropriate to the scope of the review described above.

In accordance with the Freedom ofInformation Act (5 U.S.C. § 552), reports issued by
the Office of the Inspector General are available to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.

We appreciate the cooperation and assistance extended by your staff during the audit.
You are not required to respond to this report. If you desire to discuss it, please call Teri
Lewis, Assistant Regional Inspector General for Audit, or me at (215) 656-6900.

                                               Sincerely,


                                              ~~~
                                               Bernard Tadl~y J
                                               Regional Inspector General for Audit


cc:    Mary Dilworth, Vice President for Research and Information, AACTE
